2311 Douglas Street
Omaha, Nebraska 68102-1214

C@QCKLE

7 E-Mail Address:
L ega ] Bri e fs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-380

IDENIX PHARMACEUTICALS LLC AND
UNIVERSITA DEGLI STUDI DI CAGLIARI,
Petitioners,

Vv.

GILEAD SCIENCES, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF INTELLECTUAL
PROPERTY PROFESSORS AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5998 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 16th day of November, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

feb seen] Aenea. Lleac Onda Oe

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

40206
